                                    National      Office of
                                    Science      Inspector
                                    Foundation     General




National Science Foundation
 Office of Inspector General
4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230
         703.292.7100




      http://www.nsf.gov/oig
To report fraud, waste, or abuse,
 call our hotline 1.800.428.2189




                                                   Semiannual
                                                     Report to
                                                     Congress
                                                       September 2010
About The National Science Foundation...                                                           About the Cover...

                                                                                                   Original photo by OIG auditor, Laura Koren, taken at Spruce Knob, the summit of Spruce
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   Mountain, the highest point in West Virginia (Elevation 4,863).
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
                                                                          Table of Contents
Investigations ....................................................................................7
Civil and Criminal Investigations ........................................................................................7
Research Misconduct ...................................................................................................... 11
Management Implication Reports .................................................................................... 14


Audits and Reviews .........................................................................17
Significant Contracts and Other Award Audits ................................................................ 17
Monitoring ARRA Funds ..................................................................................................20
Audit Resolution ..............................................................................................................22
A-133 Audits ....................................................................................................................23


OIG Management Activities ............................................................27
Outreach .........................................................................................................................27


Statistical Data .................................................................................31

Appendix ..........................................................................................43

FY 2011 Top Management Challenges ...........................................45
[Blank Page]
                From the Inspector General

This Semiannual Report to Congress highlights the activities of the National
Science Foundation, Office of Inspector General for the six months ending
September 30, 2010. During this period, our investigative staff closed 29 civil/
criminal investigations, had five research misconduct cases result in findings
by NSF, and recovered $2,891,973 for the government. In addition, seven
audit reports were issued, two of which questioned $585,000, and one of
which identified $88 million of unallowable contingency costs in a non-profit’s
proposed budget. Over $34 million of the contingency costs were America
Recovery and Reinvestment funds. Our work reflects our sustained commitment
to our mission to prevent and detect fraud, waste, and abuse within NSF and by
individuals or entities that receive NSF funding.

During the last six months, we completed several cases with significant
monetary recoveries for the government. A joint investigation of a public broad-
casting company for alleged False Claims Act violations led to a settlement
agreement under which the company returned $950,000 to the government;
agreed to a five-year compliance plan; and forfeited and deobligated more than
$1 million associated with awards from each of the three agencies. Expenses
charged by the company to its NSF grant included gifts and alcohol. In another
case, a company and former CEO that obtained a Small Business Innovation
and Research grant by making false statements about the success of the
project, each agreed to pay back $467,000 to the government and to be bound
by a five-year compliance plan.

Audits completed during the past six months, disclosed that a non-profit that
was receiving NSF funds was improperly allocating contingency funds for uses
such as consultant fees, travel, and beverages and snacks for employees.

In addition, my office has a leadership role in two new oversight initiatives—the
Suspension and Debarment Working Group and the Small Business Innovation
Research (SBIR) Program Working Group. The Suspension and Debarment
Working Group, which I chair for the Council of Inspector’s General on Integrity
and Efficiency’s (CIGIE) Investigative Committee, is focused on promoting
awareness and expanding the use of suspension and debarment as an effective
and powerful mechanism to safeguard taxpayer dollars from contractors and
grant recipients who commit fraud, behave unethically, or nor presently re-
sponsible. The SBIR Working Group, which I lead as part of CIGIE’s Research
Misconduct Working Group, is focused on addressing Congress’s concerns
about the persistence of fraud in the SBIR program. This group has made
progress on developing standard certifications, detecting duplicative funding,
and sharing best practices and fraud indicators across agencies.
Finally, a working group which the NSF Deputy Director and I initiated developed a more effec-
tive process for resolving audit recommendations for entities that receive NSF funds. The new
policy not only addressed some long-standing challenges that had impeded our ability to resolve
audits, but also served as an outstanding model of collaboration which recognizes our shared
commitment to stewardship of federal funds. I would also like to thank Dr. Steven Beering and
Dr. Dan Arvizu for their service on the National Science Board. I look forward to a continued
partnership with NSF in furthering our shared mission of safeguarding federal tax dollars
awarded by the Foundation.
                                                   Report Highlights
•	   A company and CEO made false claims about their project’s
     success to obtain a Phase II Small Business Research Innova-
     tion Program grant. Following a joint investigation, the company
     and CEO entered into a settlement agreement under which they
     each agreed to pay back $467,000 to the government and enter
     into a five-year compliance plan.

•	   Three universities returned funds that had been mischarged
     to NSF awards. One of these universities reimbursed over
     $85,000 to NSF and instituted new policies and procedures to
     strengthen its financial administration of NSF awards.

•	   An audit identified $88 million of unallowable contingency costs
     in a non-profit’s proposed budget. Over $34 million of the
     contingency costs were America Recovery and Reinvestment
     funds. The audit did not find any controls or technical barriers
     to prevent the organization from drawing down contingency
     funds and spending them without NSF approval.

•	   The OIG and NSF management developed a more effective
     audit resolution process to provide robust stewardship of NSF
     funding provided to grantees.

•	   The OIG is leading an effort to protect taxpayer dollars
     through expanded and more effective use of suspension and
     debarment. The Inspector General is also working with the IG
     community on initiatives to combat waste, fraud, and abuse in
     the Small Business Innovation Research Program.




                                                                        5
[Blank Page]
                                                        Investigations
Civil and Criminal Investigations
We investigate violations of federal civil and criminal statutes
by applicants for and recipients of NSF funds, as well as NSF
employees and contractors. When we find substantial evidence of
wrongdoing, we refer cases to the Department of Justice for pros-
ecution and recommend administrative action of NSF in appropriate
circumstances.

Our investigations yielded significant results during this reporting
period including a company and CEO paying over $900,000 for
False Claims Act violations and the return or forfeiture of $1.9
million by a public broadcasting company.

Joint Investigation Results in the Return or Forfeiture of
$1.9 Million

We conducted a joint investigation with the OIGs of the National
Endowment for the Arts (NEA) and the National Endowment for
the Humanities (NEH), of a New York public broadcasting company
for allegedly submitting false claims in violation of the civil False
Claims Act. In response to our subpoena for records, the company
was unable to provide sufficient documentation for the $1.5 million
NSF grant because it combined NSF funds with non-NSF funds
in its accounting system. The documents that the company did
provide showed expenses for gifts for the talent, alcohol, and costs
unrelated to the program that were charged to the NSF award.
Based on our concerns with this grant, we reviewed the general
ledgers for four other seasons of the same educational program
and determined that the company had been requesting reimburse-
ments in excess of its actual expenses. For one award, the
difference totaled $476,000. NEA OIG and NEH OIG conducted
similar reviews of their awards and found similar issues to the ones
we identified.

The broadcasting company had not discretely accounted for its
federal grant funds; had not segregated unallowable expenses
from the project accounts; and drew down funds in excess of
expenditures. We referred the matter to the U.S. Attorney’s Office,
Southern District of New York. A civil settlement was reached that
resulted in a five-year compliance plan, the return of $950,000 and         HIGHLIGHTS
the forfeiture and deobligation of more than $1 million associated
                                                                            Civil and Criminal
with awards from each of the three agencies.                                 Investigations ..................7
                                                                            Research Misconduct
                                                                             Investigations ................ 11
                                                                            Management Implication
                                                                             Reports .......................... 14

                                                                        7
Investigations


                 Company and CEO Pay Over $900,000 for False Claims Act
                 Violation

                 Our investigation, initiated pursuant to a whistleblower lawsuit, disclosed that
                 the former CEO of a Maryland based biotechnology company caused material
                 false statements to be made regarding experiments conducted under an SBIR
                 Phase I award. NSF awarded this company a Phase I SBIR award in 2005. In
                 2006, NSF awarded the company a Phase II award of $467,000 based on the
                 company’s false claims in its Phase II proposal. The investigation also revealed
                 several material false statements the company submitted in its annual project
                 reports for the Phase II award.

                 The false statements greatly exaggerated the success of the experiments
                 performed under both awards. For example, the Phase I report stated that
                 six full-scale experimental runs of the process under investigation produced
                 high-quality results that were “robust,” “replicated,” and “validated,” when in fact
                 the runs were all small-scale, none was repeated, and the results varied widely.
                 Similarly, an interim Phase II report stated that a “critical” project objective was
                 “almost completed”—but the subsequent final report, submitted by the company
                 after learning of our investigation, admitted that that objective “was not accom-
                 plished to our satisfaction.”

                 The company entered into a settlement agreement which required the company
                 and its former CEO to each pay back half of $934,000 to the U.S. Government.
                 As part of the settlement agreement, the company agreed to be bound by a
                 five-year compliance plan monitored by our office, and the former CEO volun-
                 tarily excluded himself from receiving federal funds for five years.

                 Former University Employee Convicted for Purchase Card Abuse

                 Our investigation disclosed that a former business manager at an Arizona
                 university charged nearly $17,000 for personal items, such as gift cards and a
                 video game, to an NSF award. We also identified nearly $18,000 of additional
                 charges on her purchase card which the university could not confirm were
                 properly charged to the NSF award. The investigation also revealed that she
                 had charged personal purchases to other federal and state grants.

                 The former manager pled guilty to one count of felony theft and was sentenced
                 to three years probation and ordered to pay $75,000 restitution to the university.
                 The university reimbursed $51,688 to NSF and made significant changes to its
                 policies and procedures for purchase card use to strengthen oversight of NSF
                 funds in the future.

                 NSF Terminates a Graduate Research Fellowship and Recovers
                 $69,000

                 Our investigation revealed that an Alabama student who was awarded a
                 graduate research fellowship had intentionally made a false certification on her
                 application when she stated that she was not delinquent on any federal debt.
                 After she began receiving fellowship funds, she disclosed to NSF that she was



             8
                                                              OIG Semiannual Report     September 2010


in fact delinquent on student loans and she had knowingly misrepresented her
status on her application. NSF terminated the fellowship award and recovered
approximately $69,000.

We determined that, although the student made the false certifications
intentionally, it was unclear whether the certification was still legally required or
considered by NSF to be an important precondition to the award of fellowships.
We recommended that NSF determine whether the certification was still re-
quired by law, regulation, or policy. NSF concluded that the certification was no
longer legally required; amended the certification page accordingly, and moved
the certification page to the front of the fellowship application so that applicants
are aware of all requirements before applying.

PI Receives Funding from Three Federal Agencies for the Same
Project

A PI at a Florida university received funding from three federal agencies for
the same proposal. The PI was originally accused of plagiarizing in a proposal
submitted to NSF and a progress report submitted to the Air Force Office of
Scientific Research. Our joint investigation with the Air Force determined that
the PI first submitted a proposal, which included plagiarized text and figures,
through his wife’s small business to the Air Force’s Small Business Technology
Transfer program.

The Air Force notified the PI that his proposal was approved for funding, and he
then submitted a proposal for the same project through his university to NSF’s
Small Grants for Exploratory Research program, without disclosing to NSF that
the Air Force had already approved funding for the project. NSF approved the
project for funding, and the PI then submitted the same proposal through his
wife’s business to DARPA, without disclosing either the Air Force or NSF award.
DARPA also approved funding for the project. All three proposals contained
the same significant plagiarism. The Air Force made a finding of plagiarism and
took actions against the PI.

The United States Attorney’s Office declined to prosecute the duplicative fund-
ing, in part because of the small amount of NSF funding the PI had spent before
we learned of his scheme and the availability of a strong administrative remedy.
Accordingly, we recommended that NSF debar the PI and his wife’s company
for three years, and NSF’s decision is pending.

Three Universities Return Mischarged Funds to NSF

Three universities returned funds that had been mischarged to their NSF
awards. An Ohio university reimbursed $85,511 to NSF and instituted new
policies and procedures to strengthen financial administration of NSF awards
in the future. The university had drawn down excessive funds, charged costs
incurred after the award’s expiration date, and transferred costs to the award
without supporting documentation. An Oregon university repaid $54,928 to
NSF for unsupported and ineligible costs charged to its NSF award.




                                                                                        9
Investigations


                 A New York university returned $19,736 to NSF. After a PI at the university
                 completed activities set out in his NSF proposal, he requested NSF permission
                 to spend the remaining funds on other activities. However, he did not submit a
                 proposed budget to NSF as directed and spent the remaining funds on costs
                 that were unallowable and/or lacked supporting documentation.

                 The university returned the funds to NSF and removed the PI from his posi-
                 tion as an academic center director. The university also updated its no-cost
                 extension policy to require PIs to submit a signed request form to the university
                 before obtaining an extension from NSF. In addition, we sent the PI a letter
                 admonishing him to adhere to applicable grant conditions and to reply promptly
                 to requests from NSF program officers.

                 Father Misuses NSF Logo to Fake Daughter’s Science Award

                 A news article reported that a 4th grader won a national science fair hosted by
                 NSF. The story was accompanied by a photo of the student, her father, and her
                 principal. The student was holding a trophy, a medal, and a plaque allegedly
                 from NSF. The story also reported that the girl received a letter of congratula-
                 tion from NSF stating she had won an all-expenses-paid trip to Space Camp.
                 We examined the letter which contained the NSF logo and had purportedly
                 been signed by a NSF program officer.

                 NSF does not host a national science fair. When we interviewed the father, he
                 admitted that he created the fake NSF letter and ordered the trophy, medal, and
                 plaque. He said he never intended the publicity, and he subsequently sent an
                 email to the newspaper admitting to the “hoax,” which the newspaper reported.
                 The case was declined for prosecution, and we concluded that no further action
                 was necessary.

                 PI Charges Personal Purchases to NSF Awards

                 A PI at a Utah university charged nearly $9,000 in personal purchases to two
                 NSF awards, private foundation grants, and university overhead accounts. The
                 university terminated the PI and refunded the inappropriate charges. This PI
                 is currently employed at a Massachusetts university. In order to further protect
                 the interests of the public and NSF, we recommended that NSF debar him for
                 one year. NSF’s decision is pending.

                 NSF Acts on Debarment Recommendations

                 Based on our recommendations, NSF debarred two individuals for fraudulent
                 actions:

                 •	     A former accounts payable clerk at a Wisconsin college pled guilty to a
                        felony theft charge and was ordered to pay $22,000 of restitution.1 NSF
                        agreed with our recommendation and debarred the employee for three
                        years.



                 1
                     March 2010 Semiannual Report, p.26.


           10
                                                             OIG Semiannual Report   September 2010


•	   An assistant director for an NSF-funded institute at a North Carolina univer-
     sity charged personal expenses to an NSF award and was subsequently
     terminated. The assistant director’s responsibilities included management,
     oversight and easy access to millions of dollars of federal award funds. We
     recommended that NSF debar this individual for one year. NSF agreed with
     our recommendation and debarred her for one year.


Research Misconduct Investigations
Research misconduct damages the research enterprise, is a misuse of public
funds, and undermines the trust in government-funded research. For these
reasons, pursuing allegations of research misconduct by NSF-funded research-
ers continues to be a focus of our investigative work. In recent years, we have
seen a significant rise in the number of substantive allegations of research
misconduct associated with NSF proposals and awards. It is imperative to the
integrity of research funded with taxpayer dollars that NSF-funded researchers
carry out their projects with the highest ethical standards.

During this reporting period, we referred six cases to NSF which are summa-
rized below. NSF’s decisions are pending in all six cases.

Student Fabricates Figures in Research Publication and Ph.D
Dissertation

A doctoral student at a North Carolina university fabricated a figure in a
research publication that cited NSF support. The university investigation
determined that the student used image manipulation software to create an
image of an electrophoretic gel with bands placed at the appropriate lane posi-
tions. The fabricated image appeared in a publication that was later retracted.
The investigation also revealed that multiple improperly created or manipulated
images appeared in the student’s Ph.D. dissertation. After making a finding of
misconduct, the university initiated action to rescind the student’s Ph.D. degree.

We concurred with the university’s conclusions and recommended that NSF:
make a finding of research misconduct; send a letter of reprimand; debar the
individual for three years; require certifications and assurances for three years
after debarment ends; prohibit service as a reviewer of NSF proposals for six
years; and require completion of a course in ethics training within one year of
the finding of research misconduct. NSF’s decision is pending.

PI Violates Merit Review and Plagiarizes in Three NSF Proposals

A PI who is an associate professor at a California university plagiarized text
and references into three declined proposals he submitted to NSF. One of the
sources was an NSF proposal he received for confidential merit review. The
university concluded that the PI’s actions did not constitute plagiarism, but took
actions against him including: placing the investigation report in his person-
nel file; requiring him to develop a chapter on plagiarism for the university’s
Undergraduate Student Booklet; and prohibiting him from receiving grants for
approximately one year.

                                                                                     11
Investigations


                 We did not concur with the university’s assessment and initiated our own
                 investigation. We concluded that the PI knowingly plagiarized and his actions
                 were a significant departure from accepted practices. We recommended that
                 NSF: make a finding of research misconduct; send a letter of reprimand; debar
                 him for one year; require certifications and assurances for three years after the
                 debarment period ends; prohibit him from serving as a merit reviewer for three
                 years; and require certification of attending an ethics class within one year.
                 NSF’s decision is pending.

                 PI Submits Three Proposals to NSF Containing Substantive
                 Plagiarism

                 A PI, who was an assistant professor at a Virginia university, plagiarized text
                 and references from eighteen sources into three proposals he submitted to
                 NSF. The PI’s university concluded that the PI recklessly committed plagiarism,
                 and it placed a letter of reprimand in the PI’s personnel file and authorized his
                 department chair to review his proposals for five years.

                 We concurred with the university’s assessment and recommended that NSF:
                 make a finding of research misconduct; send a letter of reprimand; require
                 certifications and assurances for three years; and require certification of attend-
                 ing an ethics class within one year. NSF’s decision is pending.

                 Professor Plagiarizes from Research Colleague into NSF Proposal

                 A professor at a North Carolina university copied text into her NSF proposal
                 from several sources, including a publication of a research colleague with
                 whom she regularly shared preprints and publication copies. The professor
                 contended that copying extended sections of text without the use of quotation
                 marks was accepted practice in her research community, but her university
                 disagreed, making a finding of research misconduct and requiring training in the
                 responsible conduct of research.

                 We concurred with the university’s assessment and recommended that NSF:
                 make a finding of research misconduct; require certifications and assurances
                 for three years; prohibit service as a reviewer for three years; and require the
                 individual to complete a course in responsible conduct of research within one
                 year of the finding of research misconduct. NSF’s decision is pending.

                 PI Partially Blames Students for Plagiarism in Two NSF Proposals

                 A PI who was an assistant professor at a California university plagiarized
                 text and figures into two proposals he submitted to NSF. The PI accepted
                 responsibility for some of the plagiarized text but also claimed he did not ad-
                 equately review background materials provided to him by his students. The PI’s
                 university concluded the PI was solely responsible and his actions constituted
                 intentional plagiarism. The university made a finding of research misconduct
                 and placed a letter of reprimand into the subject’s personnel file.




           12
                                                              OIG Semiannual Report    September 2010


We concurred with the university’s assessment and recommended NSF: make
a finding of research misconduct; send a letter of reprimand; require certifica-
tions and assurances; and require certification of attending an ethics class
within one year. NSF’s decision is pending.

PI Plagiarizes into Three NSF Proposals

A PI who was a professor at a Mississippi university plagiarized substantive
amounts of text from two dozen sources into three proposals he submitted to
NSF. The PI’s university concluded that the PI committed plagiarism, which
was a significant departure from accepted practices. It required the PI to take
courses in scientific writing and research ethics and to hire a professional editor
to review his writing for at least one year. It also required the PI’s academic
department to mandate biannual certifications for scientific ethics.

The university’s assessment of the subject’s level of intent was unclear. Based
on our analysis of the evidence, we concluded the PI’s actions were knowing
and they constituted a significant departure from accepted practices. We
recommended that NSF: make a finding of research misconduct; send a letter
of reprimand; require certifications and assurances for one year, and require
certification of attending an ethics class within one year. NSF’s decision is
pending.

Actions by NSF Management on Previously Reported Research
Misconduct Investigations

NSF has taken administrative action to address our recommendations on five
research misconduct cases reported in our March 2010 report. In each case,
NSF made a finding of research misconduct, issued a letter of reprimand, and
required completion of a course on research ethics. NSF also took additional
significant actions in response to our recommendations as summarized below.

•	   NSF required a university professor who plagiarized text, including text from
     a confidential NSF proposal, into multiple proposals, to provide certifications
     and assurances for three years and prohibited the professor from serving as
     a merit reviewer for five years.2

•	   A professor who plagiarized into several of his proposals was required by
     NSF to provide certifications and assurances for three years.3

•	   NSF required a university professor who plagiarized text from web sources
     into his NSF proposal to provide certifications for two years.4

•	   A professor at a university who plagiarized into his proposal and blamed his
     students was required by NSF to provide certifications and assurances for
     two years.5


2
  March 2010 Semiannual Report, p.30.
3
  March 2010 Semiannual Report, pp.29-30.
4
  March 2010 Semiannual Report, p.31.
5
  March 2010 Semiannual Report, p.31.


                                                                                       13
Investigations


                 •	     NSF required a university professor who plagiarized text into a proposal,
                        which she subsequently withdrew, to provide one year of certifications and
                        prohibited her from serving as a merit reviewer for one year.6

                 •	     A PI at a small business who plagiarized text into multiple proposals was
                        required by NSF to provide certifications for one year.7



                 Management Implication Reports
                 Inadequate Oversight Plans for Projects Involving International
                 Subawardees

                 We initiated an investigative review of the proposals submitted to a program
                 providing support to international participants through subawards. The
                 international collaboration program required Oversight Plans for the lead
                 institution to ensure subawardee compliance with regulations related to financial
                 accountability, biological oversight, Bioterrorism Act, and responsible conduct of
                 research (RCR).

                 We reviewed half of the 168 proposals submitted under the program, and
                 all of the 15 awarded proposals. We found that the proposals with foreign
                 subawardees had incomplete and/or rudimentary Oversight Plans that did not
                 demonstrate collaboration between the U.S. institution awardee and foreign
                 subawardee in writing the Oversight Plans. We found only one of the fifteen
                 proposals selected for award had submitted an Oversight Plan that substan-
                 tively addressed all of the relevant criteria.

                 After selecting the fifteen proposals that would be awarded, the NSF program
                 officers requested information from the PIs for those proposals, including
                 expanded information on the Oversight Plans. While most of the PIs expanded
                 on the information provided in the submitted proposal’s Oversight Plan, we
                 found only two of the fifteen made substantive changes.

                 We recommended that NSF require U.S. institutions to develop Oversight Plans
                 in conjunction with international collaborators, ensure heightened awareness
                 for RCR training and research misconduct reporting, and develop more detailed
                 guidance for Oversight Plans for future international cooperative awards. NSF’s
                 response is pending.

                 Review of Travel Expenditures by Temporary Program Staff

                 We reviewed the use of Independent Research/Development (IR/D) travel by
                 temporary NSF program staff appointed under the Intergovernmental Person-
                 nel Act, Visiting Scientists, Engineers, and Educators and permanent staff.
                 IR/D provides an important benefit to NSF staff as it provides travel funds for
                 participation in research and for scientific conferences. IR/D participants must



                 6
                     March 2010 Semiannual Report, pp.31-32.
                 7
                     March 2010 Semiannual Report, p.29.


           14
                                                             OIG Semiannual Report   September 2010


submit IR/D plans containing information specified in NSF’s Personnel Manual,
including proposed starting and ending dates as well as expected dates or
frequency of specific IR/D activities and itemized NSF costs, identifying their
purposes, type of funding, and any other funding arrangements. This informa-
tion is required to ensure approved IR/D plans are consistent with the actual
IR/D travel.

We found that some participants used IR/D funds for trips and conferences that
were not referenced in the plans, took more trips or longer trips than proposed,
failed to provide detail on conference travel, used IR/D funds for activities not
related to the IR/D plan, and spent more on travel than proposed. We also
determined that there is no centralized means to review IR/D plans or budgets,
and therefore no convenient means to compare actual expenditures to budgets.

To ensure that funds are appropriately expended and to improve the efficiency
and oversight of the IR/D program, we recommended that NSF examine all
IR/D plans and associated travel records for the past 12 months to determine
if the travel was IR/D related, within the scope of the plan, and whether the
actual travel costs are consistent with what was proposed. NSF’s response is
pending.

In addition, we concluded that the issues we identified during our review raised
significant internal control concerns with respect to training, financial control,
and oversight involving the IR/D program. Accordingly, we referred the issues
discussed above to the Office of Audit for further work.

Follow-Up Review of Awards for Research Involving Human
Subjects

In 2005, we reviewed compliance with the requirements for human subjects
research by awards from an NSF program that makes many such awards.8
We found that many awards lacked the required information on the proposal
cover sheet concerning human subjects research, had incomplete internal
NSF proposal processing forms that did not mark research as involving human
subjects, and some required institutional approvals were not filed until after the
award date. NSF took numerous remedial actions in response to our recom-
mendations.

In this reporting period we reviewed awards from the same program that in-
volved human subjects research and determined that significant improvements
have been made. We noted several administrative matters that can be easily
corrected, such as awardees’ failure to include all necessary information on
proposal cover sheets.

We also concluded that the current system of reporting changes to human
subjects work in project reports does not adequately identify awards as using
human subjects. To ensure the protection of any individuals that take part in
NSF-sponsored research, we recommended that NSF ensure proposal cover



8
    March 2006 Semiannual Report, pp.35-36.

                                                                                     15
Investigations


                 sheets are properly and fully completed, and modify the reporting requirements
                 in project reports. NSF agreed with our recommendations and stated that it
                 would strengthen language in the program solicitation regarding cover sheet
                 requirements and its annual report guidelines for project report requirements.

                 Office of Investigations Operations in Compliance with CIGIE
                 Guidelines

                 An external peer review of the Office of Investigations (OI) is conducted every
                 three years by another Office of Inspector General. In addition, OI conducts
                 an internal peer review of its operations. During the last six months, an internal
                 peer review concluded that OI operations were consistent with CIGIE guidelines
                 for investigations as well as those for Offices of Inspectors General.




           16
                                                                     Audits & Reviews
Significant Contracts and Other Award Audits
During this semiannual period seven reports were issued, one of
which contained a total of $88 million in questioned proposed costs.
We also continued our efforts to ensure that the $3 billion that NSF
received under the American Recovery and Reinvestment Act
(ARRA) was managed effectively and in accordance with the Act’s
requirements and goals.

Deficiencies Remain in Administration of Cost Reim-
bursement Contracts and Other Awards

We continue to monitor NSF’s process to address the significant
deficiency in monitoring cost reimbursement contracts reported in
NSF’s FY 2009 Financial Statement audit. We also reviewed a
$400 million cooperative agreement that included over $100 million
in ARRA funds.

In our last semiannual report9, we identified significant deficiencies
in NSF’s administration of contract and awards with a non-profit
organization, Consortium for Ocean Leadership (COL). COL is a
non-profit organization that manages ocean research and educa-
tion programs. Following is a summary of four audits related to COL
which were issued during this reporting period.

Non-Profit’s Budget Included $88 Million of Unallowable
Contingency Costs

The audit of COL’s $386 million budget to construct the Ocean
Observatories Initiative project questioned $88.1 million allocated
for contingency costs.10 This figure represents 22.7 percent of
COL’s proposed budget. Further, over $34 million of these contin-
gency costs were ARRA funds.

The audit disclosed that COL incorrectly classified contingency
costs in the proposed budgets as equipment costs. COL officials
stated to the auditors that the contingency costs would only be used
if the awardee overran the budget due to unforeseeable factors. It
is important to note that the audit concluded that COL can draw
down the contingency funds as advanced payments in the same
manner as other funds in its budget in advance of the contingencies                     HIGHLIGHTS
occurring. The audit did not find any controls or technical barriers                    Significant Contracts and
                                                                                         Other Award Audits ...........17
                                                                                        Monitoring ARRA Funds......20
                                                                                        Audit Resolution...................22
                                                                                        A-133 Audits.........................23
9
    March 2010 Semiannual Report, p. 10.
10
    Costs questioned in a proposed budget are classified as Funds Put to Better Use.

                                                                                       17
Audits & Reviews


                   to prevent COL from drawing down contingency funds and spending them
                   without NSF approval. It was recommended that NSF require COL to remove
                   unallowable contingency provisions from its proposed budgets and to discon-
                   tinue its practice of funding contingencies in this fashion.

                   The second audit found that COL’s accounting system was adequate; however,
                   NSF had not provided COL with a determination as to whether the organiza-
                   tion’s CAS Disclosure Statements were adequate and in compliance with federal
                   requirements. An approved CAS Disclosure Statement is essential because it is
                   the basis for COL classifying and billing costs to NSF. Further, the audit dis-
                   closed that NSF approved, and COL used, a non-compliant method to allocate
                   indirect costs to all COL’s contracts and awards. As a result, indirect costs were
                   incorrectly charged to NSF awards. We recommended that NSF require COL to
                   changes its accounting practice to a compliant method. The OIG and NSF will
                   work to address these matters during the audit resolution process.

                   Audit of Contract with Non-Profit Identifies Over $500,000 in
                   Questioned Costs

                   Cost reimbursement contracts are considered to be high-risk because of the
                   potential for cost escalation. Cost reimbursement costs that are paid in advance
                   are considered a higher risk because contractors are paid prior to providing the
                   required goods and services. Since COL has a cost reimbursement contract
                   with NSF that has advance payment provisions, an incurred cost audit was
                   conducted of costs claimed by the Joint Oceanographic Institution, which was
                   merged with another entity to form COL in May 2007.

                   The audit questioned costs for unsupported consultant fees and for other unal-
                   lowable costs. Specifically, the auditors questioned over $324,000 in consultant
                   fees because of inadequate supporting documentation. The auditors also
                   questioned more than $19,000 in costs for beverages and snacks. In addition,
                   more than $32,000 in reorganization costs and $15,000 in unreasonable rent
                   costs, were questioned. For the four months subsequent to the merger, the
                   audit questioned costs of more than $195,000, including $80,000 for consultant
                   fees that lacked adequate support and over $112,000 costs including unallow-
                   able reorganization, travel, beverages and snacks.

                   COL disagreed with the questioned costs, asserting that it had adequate docu-
                   mentation for the consultant costs and citing the importance of beverages and
                   snacks to employee morale. We recommended that NSF resolve the questioned
                   costs identified in the audit.

                   Adequate Property Controls at Non-Profit’s Subawardee

                   The fourth COL audit was a review at Texas A&M Research Foundation, a
                   subawardee under COL’s contract with NSF. The audit found that property
                   controls over COL’s government-owned equipment, valued at over $38 million,
                   were adequate for accounting and tracking equipment purchased with federal
                   funds.




             18
                                                            OIG Semiannual Report    September 2010


Non-Profit’s Monitoring of Subrecipients Needs Improvement

Incorporated Research Institutions for Seismology (IRIS) is a non-profit
organization comprised of a consortium of over 100 educational and seismol-
ogy research member institutions. NSF awarded two cooperative agreements
valued at a total of $80 million to IRIS.

An audit of the accounting system for IRIS disclosed four material weaknesses.
First, subrecipient monitoring was inadequate because IRIS did not ensure that
subrecipients were completing OMB required audits within nine months of year
end or adequately monitoring the subrecipients during the award period. This is
significant because over one-third of the revenue that IRIS earned in 2008 and
2009, was attributed to costs charged to NSF by IRIS subrecipients.

Second, IRIS did not maintain files to document the basis for subrecipient selec-
tion, to justify the lack of competition when competitive bids were not obtained,
or to document cost and price analyses and the basis for the award costs.

Third, the auditors identified several labor accounting issues, including a method
of allocating employees’ leave time that could result in inaccurate payroll costs
being charged to NSF and the approval of timesheets that did not support the
actual hours worked. It is essential for the labor accounting system to be sound
for NSF to have assurance that labor charges it pays are for work that benefited
the NSF program.

Finally, the IRIS accounting manual does not provide a procedure for ac-
cumulating and billing indirect costs. IRIS generally agreed with the audit’s
recommendations.

Associated Universities, Inc. Agrees to Document
Planning Process

Associated Universities, Inc. is the management organization for the NSF’s
National Radio Astronomy Observatory and other astronomical observatories,
including the Atacama Large Millimeter Array, which is under construction. An
audit was conducted to determine whether AUI’s short- and long-term planning
and budget preparation processes, used to prepare AUI’s $458 million budget
for the next five years, were adequate to ensure proper stewardship of NSF
funds. The audit found that the processes to prepare for the budget and per-
formance plan were adequate. However, the auditors recommended that AUI
prepare a single document that consolidates and describes all of its planning
process. AUI agreed to provide an outline of its planning process by March
2011.

Deficiencies in Contract Monitoring

We issued an alert memo relating to NSF’s contract with Integrated Ocean
Drilling Program Management International, Inc (IODP-MI). The contract is
valued at over $337 million and provides management and planning for NSF’s
ocean drilling program.



                                                                                     19
Audits & Reviews


                   Monitoring deficiencies identified include the lack of timely and adequate in-
                   curred cost submissions by the contractor and the lack of an NSF determination
                   that IODP-MI’s accounting system is adequate for billing costs to the govern-
                   ment. As a result, NSF risks paying unallowable costs on this contract.

                   OIG Continues To Monitor Antarctic Support Contract Competition

                   NSF is in the process of selecting a contractor to manage the United States
                   Antarctic Program (USAP) for the next 13.5 years. The current contract is NSF’s
                   largest and is currently valued at approximately $1.6 billion over eleven years.

                   The OIG continues to recommend that NSF ensure that Defense Contracting
                   Audit Agency (DCAA) audits are obtained of business and financial systems
                   along with cost proposals submitted by bidders. These audits should be
                   conducted for all the bidders selected for inclusion in the competitive range in
                   order to reduce the risk of excessive costs being billed to the government. Such
                   audits would determine whether business and financial systems are capable of
                   ensuring that government funds are properly allocated and billed and that costs
                   proposed are reasonable and allowable charges. It is important that NSF obtain
                   these audits in a timely manner so additional delays do not occur in the award
                   of the new contract. Continuing delays in making a new contract award have
                   resulted in NSF negotiating with the incumbent for a second extension of the
                   Antarctic Support Contract.



                   Monitoring ARRA Funds

                   Efforts to Oversee ARRA Compliance Continue

                   NSF received $3 billion in ARRA funds. During this period we reviewed NSF’s
                   oversight of one of these ARRA-funded projects. We also reviewed the com-
                   pleteness and accuracy of 10 awardees’ quarterly ARRA reports.

                   OIG Survey Provides Information about NSF’s Oversight Plan for
                   Construction of Alaska Region Research Vessel

                   NSF awarded $148 million in Recovery Act funds to the University of Alaska
                   Fairbanks for construction of the Alaska Region Research Vessel, Sikuliaq,
                   which will replace the oldest ship in the national Academic Research Fleet. The
                   Sikuliaq will operate year-round in the ice-choked waters around Alaska and the
                   polar region; contain extensive research instrumentation, scientific equipment,
                   and laboratories; and will be available to scientists and students in a variety of
                   disciplines through the University-National Oceanographic Laboratory System
                   scheduling process.

                   Our survey of NSF’s oversight plan for the vessel’s construction indicated
                   that at this point, NSF appears to have an adequate oversight structure for
                   overseeing the Sikuliaq construction project. Specifically, NSF has assigned
                   staff with extensive experience in ship construction to this project and has put



             20
                                                                OIG Semiannual Report     September 2010


ongoing monitoring practices in place. Additionally, the agency is reviewing
the University of Alaska Fairbank’s business systems supporting administrative
management of the Sikuliaq construction.

Construction of the Sikuliaq is slated to begin in October 2010, and we plan to
continue to monitor construction progress to enable us to review critical issues
as they arise and provide timely feedback and recommendations to NSF.

Quarterly Reports from ARRA Recipients Were Generally
Accurate and Complete

Recipients of Recovery Act funds are required to submit quarterly reports that
include data related to the projects funded and the impact of these projects on
job creation. Our review covered several specific data elements required in
quarterly reports including: number of jobs, amount of ARRA funds received,
ARRA expenditures, and project status. We examined this data as reported by
five institutions that received ARRA funds: the California Institute of Technology,
the California State University Fresno Foundation, George Mason University,
University of Colorado – Boulder, and University of Kentucky. We concluded
that these institutions had generally established appropriate processes for
compiling and reporting quarterly data in compliance with ARRA reporting
requirements.

However, we identified five areas where these NSF recipients were not
consistently, accurately, or completely reporting data in their quarterly reports.
These areas were: ARRA jobs for NSF fellowship, scholarship, and training
grants; job estimates for sub-awards and vendor contracts, jobs reported in the
proper quarter, grant activities, and sub-awardee and contractor debarment and
suspension status. If the Recovery Act’s goals of accountability and transpar-
ency are to be met, it is critical for this information to be accurate. It is important
to note, however, that we believe that awardees will address the reporting issues
we identified as they refine their ARRA reporting procedures.

To improve reporting accuracy, we recommended that NSF perform additional
outreach to its recipient community and/or work with the Office of Management
and Budget (OMB) to enhance its reporting guidance to promote consistent and
accurate recipient reporting. Key recommendations included that NSF provide
clarification on whether ARRA job creation and retention estimates should be
reported for NSF fellowships, scholarships, and training grants and for vendor
contracts under $25,000. We also recommended that NSF conduct more
outreach to emphasize the importance of reporting job information in the quarter
in which the work was performed. Further, we recommended that recipients
take steps to ensure that they do not award ARRA funds to entities that have
been debarred or suspended from receiving Federal money.

NSF generally agreed with the findings and recommendations and has taken
or proposed appropriate actions to address the recommendations. In general,
each recipient agreed to implement the suggested corrective actions to
establish and/or enhance processes to improve the quality and accuracy of its
quarterly ARRA data.



                                                                                          21
Audits & Reviews


                   We also reviewed five additional ARRA recipients, in conjunction with four
                   other Offices of Inspector General, as part of Recovery Accountability and
                   Transparency Board project. This review covered the same five data elements
                   as our separate review, and there were 29 ARRA recipients examined by the
                   Inspectors General involved in this project. These reviews also noted difficulties
                   with jobs reporting, concluding that only seven of 29 recipients reported their
                   jobs data consistent with federal guidance.

                   During this reporting period, as part of an effort coordinated by the Recovery
                   Board, we, along with five other OIGs, contributed to an audit of agencies’
                   internal controls over ARRA recipient reporting. The OIGs found that generally,
                   agencies had complied with OMB guidance for oversight of recipient reporting.
                   Our report on NSF’s effectiveness in overseeing recipient reporting will be
                   issued in the next semiannual period.


                   Audit Resolution
                   NSF Agrees to Take Steps to Address Challenges of Rotating
                   Executive Workforce

                   NSF’s rotating executive workforce presents challenges to effective personnel
                   management because assignees under the Intergovernmental Personnel Act
                   (IPAs) are not included in the performance management system and because
                   IPAs generally do not have prior experience with federal management pro-
                   cesses. In response to our audit assessing NSF’s rotating executive workforce,
                   the agency has agreed to implement a performance management process for
                   IPAs next year. NSF is also continuing to develop and expand its orientation
                   and management development programs for IPAs.

                   National Science Board Is Improving Compliance with Sunshine Act

                   The National Science Board has agreed to complete all actions recommended
                   in our 2010 audit to improve compliance with the Government in Sunshine
                   Act by the end of this year. The Board has hired legal counsel to help ensure
                   compliance with the Act and has drafted checklists to help staff comply with
                   numerous Sunshine Act requirements. Further, the Board is upgrading the
                   recording technology it uses to ensure complete recordings of each closed
                   meeting.

                   Civilian Research Development Foundation (CRDF) Strengthens
                   Controls over Sub-recipients Funds

                   To address our audit recommendations, CRDF agreed to implement stronger
                   internal controls and procedures to oversee sub-recipients, including an
                   improved time keeping system, required mandatory audits, and a more objective
                   cost allocation methodology. Further, CRDF agreed to provide training and to
                   develop additional guidance on allowable expenses to prevent their employees
                   from charging unallowable costs to NSF awards.




             22
                                                              OIG Semiannual Report   September 2010


Washington University in St. Louis Enhances Implementation and
Oversight of Labor Effort Reporting System

In response to our February 2010 audit, Washington University has taken
several steps to enhance implementation and oversight of its new labor effort
reporting system, including requiring mandatory effort reporting training for all
faculty and conducting periodic evaluations of its effort reporting processes.

NSF will continue to work with the University to require additional actions includ-
ing expanding mandatory effort reporting training to all staff charging labor cost
to federal awards and documenting that comprehensive evaluations of the effort
reporting system have been implemented.

NSF Sustains Nearly $700,000 in Questioned Fringe Benefit Costs

In response to audit recommendations, NSF sustained nearly $700,000 in
questioned fringe benefit costs claimed by Raytheon Polar Services Company.

More Effective Audit Resolution Process

In response to our December 2009 audit of the process for resolving audit
recommendations directed at NSF grantees and following up to ensure that
corrective actions are implemented, the Inspector General and NSF’s Acting
Deputy Director formed a working group to consider new strategies to improve
this process. A robust audit resolution process is critical to ensure that institu-
tions receiving funds from NSF take the necessary corrective action to properly
manage those funds.

Through a collaborative process, the OIG and NSF developed a new audit
resolution process to create more effective stewardship over federal funds
awarded by NSF. The new process was put into place in September, and the
OIG and NSF senior management who developed the process have formed a
Stewardship Collaborative. The purpose of this group is to monitor and refine
the audit resolution process and to provide a forum to discuss emerging issues.
The anticipated outcome is achieving the shared mission of proper stewardship
of the taxpayers’ investment in science, engineering, and education.


A-133 Audits
Single Audits Identify 225 Findings and $1.4 Million in Questioned
Costs At 70 NSF Awardees

OMB Circular A-133 provides audit requirements for state and local govern-
ments, colleges and universities, and non-profit organizations receiving federal
awards. Under this Circular, covered entities that expend $500,000 or more
a year in federal awards must obtain an annual organization-wide audit that
includes the entity’s financial statements and compliance with federal award
requirements. Non-federal auditors, such as public accounting firms and state



                                                                                      23
Audits & Reviews


                   auditors, conduct these single audits. The OIG reviews the resulting audit
                   reports for findings and questioned costs related to NSF awards, and to ensure
                   that the reports comply with the requirements of OMB Circular A-133.

                   For the 143 audit reports reviewed and referred to NSF’s Cost Analysis and
                   Audit Resolution (CAAR) Branch this period,11 covering NSF expenditures of
                   $10.8 billion12 during audit years 2006 through 2009, the auditors identified 225
                   findings at 70 NSF awardees. Three awardees received qualified opinions on
                   their financial statements and 14 awardees received qualified opinions on their
                   compliance with federal grant requirements, including 3 awardees who received
                   qualified opinions on compliance for programs which included NSF ARRA
                   expenditures. The auditors identified material weaknesses and/or significant
                   deficiencies in 50 reports (71 percent of reports with findings), indicating sub-
                   stantial concerns about the awardees’ ability to manage NSF funds. 28 findings
                   identified by the auditors resulted in $1.4 million in questioned costs to NSF
                   awards, of which $1.1 million were cause by lack of adequate supporting docu-
                   mentation of the amounts charged to NSF awards. Awardees’ lack of internal
                   controls and noncompliance with federal requirements included: untimely and/
                   or incorrect reporting of time and effort; inadequate support for salary/wages,
                   equipment, travel, and indirect costs charged to awards; inadequate monitoring
                   of subrecipients; inability to prepare the financial statements; and late submis-
                   sion of financial and/or progress reports.

                   We also examined 74 management letters accompanying the A-133 audit
                   reports and found 12 deficiencies that affected NSF. Auditors issue these
                   letters to identify internal control deficiencies that are not significant enough to
                   include in the audit report, but which could become more serious over time if
                   not addressed. The deficiencies included inadequate tracking, managing, and
                   accounting for NSF costs, and ineffective segregation of duties. These deficien-
                   cies affected control processes that are essential to ensuring stewardship of
                   NSF funds and preventing fraud and abuse.

                   We provided the results of each audit report to NSF and, where appropriate,
                   highlighted our concerns related to opinions or findings. In certain instances,
                   such as reports which contained significant deficiencies or material weaknesses
                   repeated for three or more consecutive years and/or reports which identified
                   $100,000 or more in questioned costs to NSF awards, we requested that NSF
                   coordinate with us during the audit resolution process. NSF coordinated with us
                   as requested prior to completing resolution of 3 reports.

                   Audit Timeliness and Quality Deficiencies Continue to Plague
                   Single Audits

                   The audit findings in A-133 reports are useful to NSF in planning site visits and
                   other post-award monitoring. Because of the importance of A-133 reports to this
                   oversight process, the OIG reviews all reports for which NSF is the cognizant
                   or oversight agency for audit, and provides guidance to awardees and auditors

                   11
                      We reviewed 2 reports but rejected them due to audit quality issues. One report was revised and resubmit-
                   ted during the period, and is included in this summary. Once we receive the second revised report, we will
                   review it, and if acceptable, refer it to NSF for resolution.
                   12
                      Amount includes $4.5 million in NSF ARRA expenditures.


             24
                                                                          OIG Semiannual Report   September 2010


for the improvement of audit quality in future reports. In addition, OIG returns
reports that are deemed inadequate to the awardees to work with the audit firms
to take corrective action.

We reviewed 61 audit reports13 for which NSF was the cognizant or oversight
agency for audit, and found that 29 fully met federal reporting requirements.

Thirty-one reports reviewed had timeliness and quality issues. Audit quality
issues identified included 17 reports in which the Schedule of Expenditures of
Federal Awards did not provide sufficient information to allow for identification of
awards received from non-federal “pass-through” entities or did not adequately
describe the significant accounting policies used to prepare the schedule,
including 2 reports which failed to accurately identify ARRA expenditures. Of the
13 reports which included audit findings, 9 reports failed to adequately present
the required elements of the finding to assist auditee management in correcting
the reported deficiency. Six reports were submitted after the submission dead-
line. In addition, there were 10 reviews that contained quality issues which had
been previously identified for the same awardees and auditors.

We contacted the auditors and awardees, as appropriate, for explanations of
each of the potential errors. In most cases, the auditors and awardees either
provided adequate explanations and/or additional information to demonstrate
compliance with federal reporting requirements, or the error did not materi-
ally affect the results of the audit. However, we rejected two reports due to
substan¬tial non-compliance with federal reporting requirements. We issued a
letter to each auditor and awardee informing them of the results of our review
and the specific issues on which to work during future audits to improve the
quality and reliability of the report.

Efforts in Response to National Single Audit Sampling Project,
Recovery Act, and Improper Payments Improvement Act

We previously reported ongoing efforts to improve the quality and oversight of
single audits in response to the recommendations of the National Single Audit
Sampling Project and on our participation in OMB workgroups.14

The Council of Inspectors General on Integrity and Efficiency (CIGIE) approved
revisions to the standards for conducting quality control reviews and desk
reviews. Our participation in the OMB workgroup established in response to
Executive Order 13520, “Reducing Improper Payments,” led to several recom-
mendations which would, if implemented, enhance and streamline the Single
Audit process to better support the overall effort to improve federal program
accountability and reduce improper payments.




 The audits were conducted by 41 independent public accounting firms.
13

 Previously reported in September 2007 Semiannual Report, p. 17, and September 2009 Semiannual
14

Report, p.18.


                                                                                                  25
[Blank Page]
                               OIG Management Activities
Outreach
Outreach is a vital component toward accomplishing our mission
to prevent and detect fraud, waste, and abuse and to promote
economy, efficiency, and effectiveness at in NSF programs and
operations. To this end we undertake a number of proactive activi-
ties such as educating NSF awardees about their financial and
programmatic responsibilities.

With the Director of the National Procurement Task Force, the
Inspector General is leading a Suspension and Debarment Working
Group under the auspices of CIGIE’s Investigations Committee.
The group includes representatives from the Recovery Account-
ability and Transparency Board, as well as the OIGs for eight other
federal agencies.

This group is focused on ways to protect taxpayer dollars through
expanded and more effective use of suspension and debarment.
The group has formulated a comprehensive survey of agencies and
their OIGs to gather baseline information about agency and OIG
suspension and debarment practices and plans to develop infor-
mational materials and presentations for agencies and prosecutors
to promulgate best practices, dispel common misperceptions, and
enable well-coordinated parallel proceedings.

Recognizing that enhanced utilization of suspension and debar-
ment authorities would better safeguard government interests, the
Suspension and Debarment Working Group will hold a workshop in
October to raise awareness of this powerful tool. The workshop will
feature case presentations, training, and materials on suspension
and debarment best practices, and will bring together OIG auditors,
investigators, and attorneys along with agency suspension and
debarment officials.

In addition to the suspension and debarment working group, the
Inspector General is continuing efforts to address Congress’s
concerns about the persistence of fraud in the Small Business In-
novation Research (SBIR) program through a working group under
the auspices of CIGIE’s Research Misconduct Working Group.

In August 2009, the Inspector General testified before the Senate
Committee on Commerce, Science and Transportation on the sub-
ject of waste, fraud, and abuse in the SBIR program. The Inspector
General’s testimony highlighted the importance of certifications in
preventing and prosecuting fraud against the SBIR program. Certi-
                                                                         HIGHLIGHTS
fications establish that the applicant was aware that providing false
statements to the government is a federal crime. The SBIR group          Outreach .......................... 27


                                                                        27
OIG Management


                 is focusing on several initiatives, such as developing a common set of certifica-
                 tions and a coordinated approach to using specific certifications throughout the
                 lifecycle of SBIR awards.

                 Our office is recognized as a leader in research misconduct investigations, and
                 we receive numerous requests from universities and others in the research
                 community to provide training on the prevention, detection, and investigation of
                 research misconduct. This subject has been increasingly recognized through-
                 out the national and international research communities as critically important
                 to the scientific enterprise. In July, the Inspector General made a presentation
                 on research integrity challenges in a plenary session of the Second World
                 Conference on Research Integrity which was attended by officials from over 50
                 nations. The Assistant Inspector General for Investigations made a presenta-
                 tion on research misconduct and research integrity and organized a full-day
                 workshop on conducting research misconduct investigations.

                 Our audit staff continues to be involved in extensive outreach efforts. Most
                 notably, our participation in the OMB workgroup formed in response to Execu-
                 tive Order 13520, “Reducing Improper Payments,” led to several recommenda-
                 tions to enhance and streamline the Single Audit process to better support the
                 overall effort to improve federal program accountability and reduce improper
                 payments. The Single Audit process addresses accountability in several ways
                 including identifying internal control weaknesses and areas of non-compliance
                 and following up on corrective action for audit findings.

                 International outreach continues to be an important component of our outreach
                 efforts. The Inspector General and NSF’s Chief Financial Officer gave a joint
                 presentation, “Challenges of Managing, Overseeing, and Auditing American
                 Recovery and Reinvestment Act Funds”, at the 2010 International Workshop
                 on Accountability Challenges. The presentation described the challenges
                 of implementing recent legislation in the U.S. to combat the crisis in financial
                 markets and to stimulate the U.S. economy. One of the primary challenges
                 was to process additional research and education awards with no increase in
                 administrative funding.

                 The primary purpose of the workshop was to discuss strategies to address
                 accountability challenges, and attendees included individuals with responsibility
                 for operating programs to administer oversee and/or prevent and detect fraud,
                 waste, and abuse in government-funded science and engineering programs as
                 well as government funding agencies and research universities and institutions.

                 Both auditors and investigators participated in a number of outreach activities
                 covering a range of issues such as grant fraud, research integrity and miscon-
                 duct, compliance programs, and projects related to the Recovery Accountability
                 and Transparency Board. Presentations on these issues were provided to
                 organizations including the National Academy of Science, the Society of Re-
                 search Administrators, the Association of College and University Auditors, the
                 Society of Corporate Compliance and Ethics, the Council of Graduate Schools,
                 and the National Council of University Research Administrators, as well as NSF
                 grantees, colleges and universities.



           28
                                                            OIG Semiannual Report   September 2010


New Assistant Inspector General for Audit

Dr. Brett M. Baker assumed the duties of Assistant Inspector General for
Audit in June. Dr. Baker currently serves as Vice Chair of the Federal Audit
Executive Council. Dr. Baker is also leading an effort, in collaboration with the
Recovery Accountability and Transparency Board, to develop a framework for
OIG grant oversight.




                                                                                    29
[Blank Page]
                                                     Statistical Data
                           Audit Data

     Audit Reports Issued with Recommendations
               for Better Use of Funds

                                                     Dollar Value
A.    For which no management decision has been         $1,153,497
      made by the commencement of the reporting
      period
B.    Recommendations that were issued during         $88,184,480
      the reporting period
C.    Adjustments related to prior                              $0
      recommendations
Subtotal of A+B+C                                     $89,337,977
D.    For which a management decision was made          $1,153,497
      during the reporting period
      i)    Dollar value of management decisions                $0
            that were consistent with OIG
            recommendations
      ii)   Dollar value of recommendations that        $1,153,497
            were not agreed to by management
E.    For which no management decision had            $88,184,480
      been made by the end of the reporting period
For which no management decision was made                       $0
within 6 months of issuance




                                                                     31
Statistical Data



                         Audit Reports Issued with Questioned Costs

                                                      Number of   Questioned    Unsupported
                                                       Reports      Costs          Costs
  A.   For which no management decision has been         33       $62,769,734   $2,553,659
       made by the commencement of the reporting
       period
  B.   That were issued during the reporting period      17       $2,053,924    $1,540,132
  C.   Adjustment related to prior recommendations
  Subtotal of A+B+C                                               $64,823,658   $4,093,791
  D.   For which a management decision was made          7         $614,602       $35,400
       during the reporting period
       i)	 dollar value of disallowed costs             N/A        $52,880         N/A
       ii)	 dollar value of costs not disallowed        N/A        $561,722        N/A
  E.   For which no management decision had been         43       $64,209,056   $4,058,391
       made by the end of the reporting period
  For which no management decision was made within       26       $62,155,132   $2,518,259
  6 months of issuance




            32
                                                              OIG Semiannual Report    September 2010



                     Audit Reports Involving Cost-Sharing Shortfalls

                                                 Number of     Cost-     At Risk of    Actual Cost
                                                  Reports     Sharing   Cost Sharing     Sharing
                                                             Promised     Shortfall     Shortfalls
                                                                         (Ongoing      (Completed
                                                                          Project)       Project)
A.   Reports with monetary findings for which       2                    $136,263       $510,718
     no management decision has been made
     by the beginning of the reporting period:
B.   Reports with monetary findings that were       1           $0          $0          $225,884
     issued during the reporting period:
C.   Adjustments related to prior                   0           $0          $0              $0
     recommendations
Total of reports with cost sharing findings         3                    $136,263       $736,602
(A+B+C)
D.   For which a management decision was            0           $0          $0              $0
     made during the reporting period:
     1.Dollar value of cost-sharing shortfall       0           $0          $0              $0
     that grantee agreed to provide
     2.Dollar value of cost-sharing shortfall       0           $0          $0              $0
     that management waived
E.   Reports with monetary findings for which       3                    $136,263       $736,602
     no management decision has been made
     by the end of the reporting period




                                                                                       33
Statistical Data



    Status of Recommendations that Involve Internal NSF Management Operations

    Open Recommendations (as of 09/30/2010)
     Recommendations Open at the Beginning of the Reporting Period                                             52
     New Recommendations Made During Reporting Period                                                           0
     Total Recommendations to be Addressed                                                                     52
    Management Resolution of Recommendations            1


     Awaiting Resolution                                                                                        3
     Resolved Consistent With OIG Recommendations                                                              49
    Management Decision That No Action is Required                                                              0
    Final Action on OIG Recommendations         2


     Final Action Completed                                                                                    10
    Recommendations Open at End of Period                                                                      42



                                    Aging of Open Recommendations

    Awaiting Management Resolution:
     0 through 6 months                                                                                         0
     7 through 12 months                                                                                        1
     More than 12 months                                                                                        2
    Awaiting Final Action After Resolution
     0 through 6 months                                                                                         0
     7 through 12 months                                                                                       24
    More than 12 months                                                                                        15




1
  “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
mented in response to the audit recommendations.
2
  “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.


             34
                                                           OIG Semiannual Report   September 2010



                                         List of Reports

NSF and CPA Performed Reviews
Report       Subject                         Questioned Unsupported Better Use          Cost
Number                                       Costs      Costs       of Funds            Sharing
                                                                                        At-Risk
10-1-010     Audit of COL’s Government               $0              $0            $0         $0
             Owned Equipment
10-1-011     Audit of COL’s Accounting               $0              $0            $0         $0
             System
10-1-012     COL OOI Proposed Budget                 $0              $0   $88,184,480         $0
10-1-013     AUI Internal Controls Long &            $0              $0            $0         $0
             Short Term Planning
10-1-014     JOI 20 Month Incurred Cost        $392,309       $324,500             $0         $0
10-1-015     COL 4 Month Incurred Cost          $195,937       $80,000             $0         $0
10-1-016     IRIS Accounting System                  $0              $0            $0         $0
10-6-004     Alert Memo IODP IMI                     $0              $0            $0         $0
             Contract Administration
10-6-006     ARRA-ARRV Construction                  $0              $0            $0         $0
             Planning Survey
10-6-007     ASC Alert Memo Antarctic                $0              $0            $0         $0
             Support Contract
10-6-008     ARRA Alert Memo Additional              $0              $0            $0         $0
             NSF Outreach & Guidance
10-6-008-A   California Institute of                 $0              $0            $0         $0
             Technology
10-6-008-B   California State University -           $0              $0            $0         $0
             Fresno
10-6-008-C   George Mason University                 $0              $0            $0         $0
10-6-008-D   University of Colorado -                $0              $0            $0         $0
             Boulder
10-6-008-E   University of Kentucky                  $0              $0            $0         $0
             Total:                            $588,246       $404,500    $88,184,480         $0




                                                                                   35
Statistical Data



                                           NSF-Cognizant Reports

   Report                          Subject                   Questioned   Unsupported   Cost Sharing
   Number                                                      Costs         Costs        At-Risk
  10-4-082         12-07 REVISED DOSSEC Drilling,            $0           $0            $0
                   Observation & Sampling of the Earth’s
                   Continental Crust, Inc. & Subsidiary – UT
  10-4-086         12-06 REVISED DOSSEC Drilling,            $0           $0            $0
                   Observation & Sampling of the Earth’s
                   Continental Crust, Ind. & Subsidiary – UT
  10-4-105         6-09 SoundVision Productions - CA        $0            $0            $0
  10-4-106         6-09 QEMN Quality Education for          $0            $0            $0
                   Minorities Network – DC
  10-4-107         9-09 UCAR University Corporation for     $0            $0            $0
                   Atmospheric Research – CO
  10-4-108         9-09 Fermi Research Alliance LLC – IL    $0            $0            $0
  10-4-109         12-08 REVISED Center for Severe          $0            $0            $0
                   Weather Research – CO
  10-4-110         9-09 NEON National Ecological            $0            $0            $0
                   Observatory Network, Inc. – CO
  10-4-111         9-09 Northern California Public          $0            $0            $0
                   Broadcasting, Inc. – CA
  10-4-112         6-09 REJECTED Michigan State             $0            $0            $0
                   University – MI
  10-4-113         2-07 REVISED Astronomical Society of     $0            $0            $0
                   the Pacific – CA
  10-4-114         12-09 ICSI International Computer        $0            $0            $0
                   Science Institute – CA
  10-4-115         2-09 REJECTED Astronomical Society       $0            $0            $0
                   of the Pacific – CA
  10-4-116         9-09 AUI Associated Universities,        $0            $0            $0
                   Inc. – DC
  10-4-117         6-09 Carnegie Institution of             $0            $0            $0
                   Washington – DC
  10-4-118         9-09 Concord Consortium,                 $0            $0            $0
                   Incorporated – MA
  10-4-119         6-09 The Children’s Museum               $0            $0            $0
                   (Boston) – MA
  10-4-120         6-09 American Museum of Natural          $0            $0            $0
                   History – NY
  10-4-121         9-09 Museum of Science and Industry,     $0            $0            $0
                   Inc. – FL
  10-4-122         6-09 Museum of Science – MA              $0            $0            $0
  10-4-123         12-09 American Physical Society – MD     $0            $0            $0
  10-4-124         6-09 Liberty Science Center, Inc. – NJ   $0            $0            $0
  10-4-125         6-09 MPC Corporation – PA                $0            $0            $0


             36
                                                          OIG Semiannual Report    September 2010


10-4-126   6-09 New York Botanical Garden – NY       $0          $0               $0
10-4-127   6-09 WNET.ORG / Educational               $0          $0               $0
           Broadcasting Corporation – NY
10-4-128   6-09 WNYC Radio – NY                      $0          $0               $0
10-4-129   6-09 The Queens Borough Public            $0          $0               $0
           Library – NY
10-4-130   CORD, Inc. – TX                           $0          $0               $0
10-4-131   12-09 Hopa Mountain Foundation – MT       $0          $0               $0
10-4-132   9-09 Chabot Space and Science             $0          $0               $0
           Center – CA
10-4-133   12-09 Missouri Botanical Garden – MO      $0          $0               $0
10-4-134   9-09 Botanical Society of America,        $0          $0               $0
           Inc. – MO
10-4-135   9-09 NEES Consortium, Inc. – CA           $0          $0               $0
10-4-136   12-09 Academy of Natural Sciences of      $0          $0               $0
           Philadelphia – PA
10-4-137   9-09 TMT Observatory Corporation – CA $0              $0               $0
10-4-138   12-09 BIOS Bermuda Institute of Ocean     $0          $0               $0
           Sciences FKA Bermuda Biological – NY
10-4-139   9-09 COL Consortium for Ocean             $0          $0               $0
           Leadership – DC
10-4-140   8-09 Spokane School District              $0          $0               $0
           No 81 – WA
10-4-141   9-06 AURA Association of Universities     $0          $0               $0
           for Research in Astronomy, Inc. – DC
10-4-142   9-07 AURA Association of Universities     $0          $0               $0
           for Research in Astronomy, Inc. – DC
10-4-143   9-09 IMI IODP Management                  $0          $0               $0
           International, Inc. – DC
10-4-144   12-09 American Astronomical               $0          $0               $0
           Society – DC
10-4-145   12-09 Association for Institutional       $0          $0               $0
           Research, Inc. – FL
10-4-146   12-09 Monterey Bay Aquarium Research      $0          $0               $0
           Institute – CA
10-4-147   12-09 TERC Technical Education            $0          $0               $0
           Research Centers, Inc. – MA
10-4-148   12-09 AAAS American Association for       $0          $0               $0
           the Advancement of Science – DC
10-4-149   6-09 REVISED Michigan State               $0          $0               $0
           University
10-4-150   12-09 Field Museum of Natural             $0          $0               $0
           History – IL
10-4-151   9-09 AURA Association of Universities     $0          $0               $0
           for Research in Astronomy, Inc. – DC
10-4-152   9-09 California Institute of Technology   $0          $0               $0



                                                                                   37
Statistical Data


  10-4-153         12-09 Marine Biological Laboratory – MA $0       $0        $0
  10-4-154         9-09 WIYN Consortium, Inc. – AZ        $0        $0        $0
  10-4-155         12-09 The Samuel Roberts Noble         $0        $0        $0
                   Foundation, Inc. – OK
  10-4-156         12-09 Boyce Thompson Institute for     $0        $0        $0
                   Plant Research, Inc. – NY
  10-4-157         3-09 Decision Science Research         $0        $0        $0
                   Institute, Inc. – OR
  10-4-158         12-09 AGU American Geophysical         $0        $0        $0
                   Union – DC
  10-4-164         2-08 REVISED Astronomical Society of   $0        $0        $0
                   the Pacific – CA
  10-4-165         12-08 Barrow Arctic Science            $22,314   $22,314   $0
                   Consortium – AK
  10-4-166         9-09 LSST, Inc. – AZ                   $0        $0        $0
  10-4-168         6-09 REVISED IUP Research              $0        $0        $0
                   Institute – PA
  10-4-169         12-09 Franklin Institute – PA          $0        $0        $0
                   Total:                                 $22,314   $22,314   $0




             38
                                                          OIG Semiannual Report    September 2010



                                       Other Federal Audits

 Report                     Subject                 Questioned Unsupported        Cost Sharing
 Number                                               Costs       Costs             At-Risk
10-5-082   6-09 Sisseton-Wahpeton College – SD           $132              $0               $0
10-5-084   6-09 State of Florida                        $3,710         $3,710               $0
10-5-086   6-09 Harvard University – MA                $20,905             $0               $0
10-5-089   6-08 Howard University – DC                $549,532       $287,766               $0
10-5-093   6-09 Polytechnic Institute of New York      $20,905             $0               $0
           University – NY
10-5-097   6-09 Wildlife Trust, Inc. & Wildlife           $114           $114               $0
           Preservation Trust International,
           Inc. – NY
10-5-098   6-09University of Richmond and Its           $5,760         $5,760               $0
           Affiliates – VA
10-5-117   6-09 Central Michigan University – MI      $619,489      $619,489                $0
10-5-122   6-09 Trustees of Amherst College – MA          $78              $0               $0
10-5-123   6-09 Chicago State University – IL          $32,443       $32,443                $0
10-5-126   6-09 Saint Louis University – MO            $18,324             $0               $0
10-5-130   6-09 Stevens Institute of                   $17,342        $17,342               $0
           Technology – NJ
10-5-132   6-09 Howard University – DC                $144,209      $136,273                $0
10-5-142   6-09 State of Arizona                       $10,421        $10,421               $0
           Total:                                   $1,443,364     $1,113,318               $0




                                                                                   39
Statistical Data



                     Audit Reports with Outstanding Management Decisions

This section identifies audit reports involving questioned costs, funds put to better use, and
cost sharing at risk where management had not made a final decision on the corrective action
necessary for report resolution with six months of the report’s issue date.  At the end of the
reporting period there were twenty-six reports remaining that met this condition.  The status of
recommendations that involve internal NSF management is described on page 34.

   Report                      Subject               Questioned     Unsupported    Better Use    Cost
   Number                                              Costs           Costs        of Funds    Sharing
                                                                                                At-Risk
  05-1-005         RPSC Costs Claimed FY2000          $33,425,115            $0            $0        $0
                   to 2002
  06-1-023         RPSC 2003/2004 Raytheon            $22,112,521            $0            $0        $0
                   Polar Services
  07-1-003         Triumph Tech, Inc.                    $80,740          $1,192           $0        $0
  07-1-015         Supplemental schedule to             $560,376             $0            $0        $0
                   #06-1-023 RPSC
  07-1-019         Abt Associates                        $22,716             $0            $0        $0
  09-1-010         Carnegie Institution of               $25,718        $25,718            $0        $0
                   Washington
  09-1-011         Wisconsin Ice Core Drilling        $2,475,308        $27,308            $0        $0
                   Services
  09-1-014         University of Michigan              $1,604,713     $1,418,889           $0
  09-4-088         12-07 AACC American                   $12,734             $0            $0        $0
                   Association of Community
                   Colleges
  09-5-048         8-07 College of the                  $110,629             $0            $0        $0
                   Mainland – TX
  09-5-052         6-07 Howard University – DC         $1,125,491      $662,940            $0        $0
  09-5-176         9-07 Fort Berthold                        $75            $75            $0        $0
                   Community College – ND
  10-1-001         SUNY at Stony Brook Effort            $23,656             $0            $0        $0
                   Reporting
  10-1-003         University of Nevada-Reno             $54,154             $0            $0        $0
                   Effort Reporting
  10-1-008         University of Delaware Effort         $34,299             $0            $0        $0
                   Reporting
  10-4-004         12-08 Carnegie Institute – PA         $24,000             $0            $0        $0
  10-4-012         8-08 WGBH Educational                    $791           $776            $0        $0
                   Foundation – MA
  10-4-027         12-08 American Association of         $41,400             $0            $0        $0
                   Community Colleges – DC
  10-4-045         12-08 American Institute of          $267,638       $267,638            $0        $0
                   Biological Sciences, Inc. – DC
  10-4-094         6-09 Keck Graduate Institute of       $11,641             $0            $0        $0
                   Applied Life Sciences – CA


             40
                                                          OIG Semiannual Report   September 2010


10-4-100   8-09 WGBH Education                  $1,881              $0            $0       $0
           Foundation – MA
10-5-005   6-08 Northeastern                    $6,125          $6,125            $0       $0
           University – MA
10-5-015   9-08 Oglala Lakota                   $4,104          $4,104            $0       $0
           College – SD
10-5-016   6-08 State of Arizona               $71,858         $46,045            $0       $0
10-5-055   9-08 Fort Berthold Community         $1,356          $1,356            $0       $0
           College – ND
10-5-060   6-09 Cal State L.A. University      $56,093         $56,093            $0       $0
           Auxiliary Services, Inc. – CA
           Total:                           $62,155,132     $2,518,259            $0




                                                                                  41
Statistical Data



                                            INVESTIGATIONS DATA
                                     (April 1, 2010 – September 30, 2010)

Civil/Criminal Investigative Activities

Referrals to Prosecutors				   4
Criminal Convictions/Pleas				 0	
Civil Settlements					4	
Indictments/Information				    0
Investigative Recoveries				   $2,891,973.18

Administrative Investigative Activities

Referrals to NSF Management for Action		                               19
Research Misconduct Findings			                                        5
Debarments						                                                       3
Administrative Actions					                                            70
Certifications and Assurances Received1		                              28


                                           Investigative Case Statistics

                                                   Preliminary         Civil/Criminal                 Administrative

Active at Beginning of Period			                             44		                 83			                         75
Opened				                                                  128		                 35			                         50
Closed					                                                 139		                 29			                         43
Active at End of Period			                                   33		                 89			                         82


                      Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the freedom of
Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy Act (5 U.S.C. paragraph
552a). During this reporting period:

Requests Received			                               42
Requests Processed			                              39
Appeals Received			                                 0

Response time ranged between 2 days and 20 days, with the median around 15 days and the
average around 14 days.




1
  NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the
subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly
submitted NSF proposal does not contain anything that violates NSF regulations.



             42
                                                     Appendix
                        Acronyms
AD		    NSF Assistant Director
AIG		   Associate Inspector General
ARRA		  American Recovery and Reinvestment
CAREER	 Faculty Early Career Development Program
CAS		   Cost Accounting Standards
CBA		   Collective Bargaining Agreement
CIGIE		 Council of Inspectors General on Integrity and
		      Efficiency
CISE		  Computer and Information Science and Engineering
		      Directorate
COI		   Conflict of Interest
COV		   Committee of Visitors
DACS		  Division of Acquisition and Cost Support
DCAA		  Defense Contract Audit Agency
DD		    Deputy Director
DGA		   Division of Grants and Agreements
DIAS		  Division of Institution and Award Support
DoD		   Department of Defense
DoE		   Department of Energy
DoJ		   Department of Justice
ECIE		  Executive Council of Integrity and Efficiency
EPSCoR	 Experimental Program to Stimulate Competitive
		Research
FFRDC		 Federally Funded Research and Development Centers
FISMA		 Federal Information Security Management Act
GAO		   Government Accountability Office
GAS		   Government Auditing Standards
GPRA		  Government Performance and Results Act
HHS		   Department of Health and Human Services
IG 		   Inspector General
MIRWG	  Misconduct in Research Working Group
MREFC	  Major Research Equipment and Facilities Construction
NIH		   National Institute of Health
NSB		   National Science Board
NSF		   National Science Foundation
OEOP		  Office of Equal Opportunity Programs
OIG		   Office of Inspector General
OMB		   Office of Management and Budget
OPP		   Office of Polar Programs
OPM		   Office of Personnel Management
PCIE		  President’s Council on Integrity and Efficiency
PI		    Principal Investigator
PFCRA		 Program Fraud Civil Remedies Act
SBIR		  Small Business Innovation Research
STC 		  Science and Technology Centers
USAP		  United States Antarctic Program


                                                               43
[Blank Page]
                                                FY 2011 Top
                                           Management Challenges
CHALLENGE: Ensuring Proper Stewardship of
ARRA Funds
Overview: The American Recovery and Reinvestment Act
(ARRA), was enacted by Congress to create and save jobs through
investments for long-term economic growth. ARRA provided $3
billion for the National Science Foundation (NSF) in February 2009
and NSF staff worked expeditiously to obligate $2.5 billion for 4,599
research grants within a matter of months. NSF recipients have
conscientiously performed their reporting responsibilities and their
ARRA reporting rate has been nearly 100 percent in each quarter.
However, as of September 2010, just $597 million of NSF’s ARRA
funds have been expended, the lowest spending rate (or “burn
rate”) among federal agencies. The low burn rate, combined with
the difficulties of measuring the economic impact of basic research,
has made NSF appear to some to be ill suited to its role as an
ARRA funding agency.

Challenge for the Agency: The primary challenge for the agency
going forward will be to monitor ARRA awards to assure that
grantees carry out their reporting responsibilities and that the funds
are not subject to fraud, waste or abuse. An OIG review found that
$108 million in ARRA funds were awarded to institutions that war-
rant more oversight. NSF will be hard pressed to provide needed
oversight and monitor grantee compliance with both existing and
new reporting requirements.

NSF has estimated that the ARRA awards will ultimately provide
support to 40,000 additional researchers. An OIG review published
in June indicated that one significant problem area for those
reporting about their ARRA grants is estimating the number of
jobs created or saved. For NSF to participate in future stimulus
initiatives, and for those efforts to have broad public support and
confidence, accurate reporting of their impact on the economy and
employment is critical.

$400 million of NSF’s ARRA funds were appropriated for MREFC
projects. The facilities selected for funding include the Advanced
Technology Solar Telescope, the Alaska Region Research Vessel
(AARV), and the Ocean Observatories Initiative. We have consis-
tently identified the planning and management of large, complex
infrastructure projects such as these as a management challenge
for NSF and a significant area of risk.

Finally, the agency’s allocation of $200 million of ARRA funds in
support of the Academic Research Infrastructure (ARI) Program,
a program NSF has not been involved with for some time, poses

                                                                         45
Management Challenges


                        a challenge. This program presents the same types of risk to NSF as a newly
                        established program and will require the sustained involvement and attention of
                        program officers and administrative staff for months to come.

                        OIG’s Assessment of the Agency’s Progress: NSF has been effective thus
                        far in monitoring recipient reporting and the spending of grantees. In particular,
                        without the agency’s efforts to enforce the termination of awards that have no
                        expenditures after 12 months, it is possible that the spending rate might even
                        be lower. NSF has also been responsive to OIG recommendations made in a
                        June report to improve the reporting of jobs created and saved.

                        To ensure the accountability and integrity of ARRA funds, NSF has incorpo-
                        rated special weighting factors for ARRA awards into NSF’s Risk Assessment
                        Model. The agency has also indicated that it has taken a number of steps to
                        strengthen the administration and management of both the MREFC projects
                        and the ARI program. An OIG survey undertaken earlier this year to better
                        understand NSF’s oversight of the construction process of the ARRV disclosed
                        no obvious problems.


                        CHALLENGE: Improving Grant Administration
                        Overview: NSF fulfills its mission to promote science chiefly by issuing limited-
                        term grants. Currently NSF funds about 10,000 new awards each year for
                        research proposals that have been evaluated by objective merit review panels.

                        The success of NSF’s mission and the achievement of its goals are therefore
                        largely dependent on effective grant administration. The American Recovery
                        and Reinvestment Act increases the need for effective grant management
                        as the Act requires NSF to manage an unprecedented influx of funds while
                        meeting economic stimulus goals and responding to increased reporting
                        requirements without additional funding for staffing. Further complicating the
                        responsibility for grants administration is the requirement that grantees receiv-
                        ing ARRA funds closely monitor subrecipients’ use and accounting of funds.

                        Challenge for the Agency: Ensuring effective oversight throughout the life
                        cycle of an award continues to be an accountability challenge. Prior OIG audits
                        of NSF’s operations have indicated that NSF needs to continue to improve
                        its grant management activities including the oversight of awardees’ financial
                        accountability, programmatic performance, and compliance with applicable
                        federal and NSF requirements.

                        In FY 2010, NSF performed 20 percent fewer Award Monitoring and Business
                        Assistance Program site visits than it had planned. NSF indicated that this
                        decrease is due to staffing constraints. These site visits are important for
                        NSF to assess awardees’ capability, performance, and compliance with award
                        requirements for awards rated as high-risk. It will be a challenge for NSF to
                        increase the number of site visits in the future. If NSF’s budget continues to
                        grow, the resulting increase in award funds, along with the need to monitor
                        ARRA awards without an increase in staff, compounds this challenge.



                 46
                                                                                OIG Semiannual Report         September 2010


NSF also needs to ensure that awardees are providing sufficient oversight of
sub-recipients. Recent grant audits found that two NSF awardees, a university
and a non-profit, had material internal control deficiencies in subrecipient
monitoring. It is imperative that awardees that pass federal funds through to
subrecipients monitor them to ensure that their financial systems are adequate
to manage the federal money they receive. If such monitoring is insufficient,
NSF risks paying unallowable or even fraudulent costs.

OIG’s Assessment of the Agency’s Progress: In its progress report on
the 2010 management challenges, NSF reported that it had taken several
actions to improve awardees’ oversight of subrecipients, including conducting
outreach, site visits, and conferences to assist the prime awardees. In addition,
NSF indicated that it had established teams which helped ensure effective
management practices over Recovery Act funds and developed procedures to
address and monitor ARRA quarterly recipient reporting requirements. Finally,
a joint NSF/OIG work group developed a new external audit resolution policy to
improve stewardship over federal funds.


CHALLENGE: Strengthening Contract Administration
Overview: In FY 2009, NSF obligated approximately $480 million for contracts
for the delivery of products and services, including $361 million for cost reim-
bursement contracts. Of that amount, NSF made advanced payments of $270
million to three contractors with the majority going to the current United States
Antarctic Program (USAP) contractor. In such situations, pre-and post-award
audits are critical to preventing improper payments.

The only significant deficiency noted in NSF’s 2009 financial statements audit
focused on the monitoring of cost reimbursement contracts.15 The finding cites
delays by the agency in obtaining audits of NSF’s largest and riskiest contracts,
and states that contract oversight procedures, including evaluation of contrac-
tors’ accounting systems prior to awarding cost reimbursement type contracts,
are inadequate and ineffective. In addition, a September 2009 report issued
by GAO concerning inadequate surveillance over cost reimbursement type
contracts focused on problems at NSF as well as several other agencies.

These findings coincide with the ongoing recompetition of NSF’s largest
contract to provide logistical support to the USAP for 13.5 years. NSF has twice
delayed its award of the contract and incurred additional expenses by extending
the current one.

Challenge for the Agency: The long-term challenge for NSF is to continue
to strengthen its management of contract administration. To accomplish that
goal, auditors made 10 recommendations that include improvements to ensure
that costs paid on contracts are reasonable and accurate, and that audits of the
riskiest contracts, including the current USAP contract, are obtained as soon as
possible. More immediate is the delicate challenge of bringing the recompetition


15
   Such contracts provide the reimbursement of allowable costs and a profit and therefore shift some of the
risk of contract performance to the government.


                                                                                                              47
Management Challenges


                        of the USAP contract to a successful conclusion. NSF must ensure that the
                        process results in the selection of a contractor that can effectively support
                        the needs of the science community while providing value to the government.
                        The process should assure that: all offerors receive the same information and
                        opportunities, their proposals are carefully analyzed and compared, and critical
                        information is verified by auditors. The closeout of the existing USAP contract
                        will also pose a challenge, as NSF must finally resolve any deferred past audit
                        findings, as well as obtain audits of incurred costs for later contract years.

                        On a broader level, the administration is calling on agencies to reform their
                        contracting organizations and practices to save money and increase efficiency.
                        The President has set a goal of saving $40 billion in contracting annually by FY
                        2011 and the President’s Management Council (PMC) has asked federal agen-
                        cies to reduce their use of high-risk contracts, particularly those that feature
                        cost reimbursement provisions. The PMC is also pressing agencies to shore
                        up the capacity and capability of the acquisition workforce, an area of NSF that
                        needs more attention. The challenges presented by the USAP contract transi-
                        tion, the need to correct NSF’s existing contact administration deficiencies,
                        and meeting the heightened expectations of the administration in this area, are
                        significant.

                        OIG’s Assessment of Agency Progress: NSF has taken steps toward
                        improving contract administration but has more work to do. A corrective action
                        plan was prepared in response to the findings reported from the financial audit,
                        and the auditors are currently evaluating the status of those actions. Mean-
                        while, a timely award of the new USAP contract is a priority of management,
                        but the integrity of the process cannot be compromised. NSF has developed
                        a plan to take the acquisition to award and has informed us that senior NSF
                        managers are meeting regularly to assess the procurement’s progress.

                        In preparation for closing out the current USAP contract, NSF and the Defense
                        Contract Audit Agency (DCAA) signed an Interagency Agreement in late
                        September for DCAA to conduct incurred cost audits of the USAP contract for
                        2005 through 2007. Over the past year, NSF has also completed a workload
                        analysis of the acquisitions division and hired three additional staff as a result.
                        It has also increased training offerings, primarily for Contract Officer’s Technical
                        Representatives. But current acquisition staffing may still not be adequate to
                        perform necessary contract monitoring activities.


                        CHALLENGE: Becoming a Model Agency for Human
                        Capital Management
                        Overview: World-class executive leadership and effective human capital
                        management are vital to NSF’s success as a high performing organization and
                        to its goal of becoming a model agency for human capital management. In
                        addition to its non-scientific and support staff, NSF’s workforce includes more
                        than 700 scientists and engineers, about half of whom are permanent govern-
                        ment employees. To lead and maintain a world-class scientific workforce, NSF
                        supplements its permanent, career employees with a variety of non-permanent
                        staff. While these non-permanent personnel strengthen NSF’s ties with the

                 48
                                                             OIG Semiannual Report     September 2010


research community and provide the agency with executive leadership, talent
and resources that are critical to accomplishing its mission, because most of
them are new to the government, they are often unaccustomed to working in a
federal environment.

Challenge for the Agency: Becoming a model agency for human capital
management will require sustained management attention and commitment by
the NSF Director and throughout the management structure at NSF. One of the
most significant and long-standing challenges NSF faces is maintaining a rotat-
ing director model that capitalizes on rotators’ scientific and technical expertise,
while ensuring that they have the managerial knowledge and skills to ensure
effective personnel management. Since rotating executives do not receive
performance ratings, they are not held accountable as career executives are.
Further, rotators generally do not have prior working knowledge of the federal
government culture or of federal government management processes. NSF
faces an ongoing challenge to provide adequate leadership and management
training for its rotating executives and to address the challenges presented to
its mission by frequent turnover in leadership positions. Recent staff changes
in key human capital management positions may also present challenges to
NSF’s efforts to address its workforce issues, as does the fact that the agency
does not have a full time Chief Human Capital Officer.

OIG’s Assessment of Agency’s Progress: NSF has taken several steps
to address its workforce challenges. For example, it established a Human
Resources Policies Working Group which has produced a number of workforce
recommendations including ones directed at the role of rotators. In August,
NSF received the results of OPM’s review of its human capital management
system which raised a number of significant concerns. In its response to
OPM’s recent human capital management evaluation, the Acting Director stated
that she is committed to holding all managers and human resource officers
accountable for meeting their human capital management responsibilities.

The agency has reported that it has also initiated planning to institute a perfor-
mance management process for rotators serving at NSF under the Intergovern-
mental Personnel Act (IPAs) that will set clear performance expectations and
ensure that IPAs are evaluated on a regular basis. Further, NSF has started
the rollout of its New Executive Training Program to train new managers and to
orient them to federal processes. NSF has also offered management training
in a number of areas, including addressing performance problems, leadership
skills, and managerial responsibilities which are targeted at the executives.
NSF has stated that it intends to continue developing its training program,
including adding a management development seminar for all new executives.


CHALLENGE: Encouraging Ethical Conduct of Research
Overview: Reports of scientists committing research misconduct violations
or otherwise engaging in questionable research practices are on the rise due
partly to the temptations presented by ever increasing amounts of information
available on the internet combined with the development of more powerful
search tools. The situation is further exacerbated by the growing number of


                                                                                       49
Management Challenges


                        research collaborations between American researchers and scientists and
                        students from different nations: in such cases individual researchers are often
                        unclear as to which country’s set of rules applies, as there are differences
                        between the various science communities concerning research ethics and
                        the reporting and compliance regime to which they are subject. International
                        organizations such as the OECD’s Global Science Forum (GSF) have taken
                        steps to bridge the differences on these issues and develop one framework
                        that will apply in the area of research misconduct. According to studies,
                        encouraging ethical conduct of research through expanded training offerings
                        has the potential to make a significant difference in reducing the occurrence of
                        questionable professional practices and research misconduct.

                        Challenge for the Agency: NSF’s challenge is to strengthen the understand-
                        ing of and adherence to recognized standards of ethical research conduct
                        by scientists in the U.S. and the foreign partners who participate in the
                        international collaborations it funds. It can address this challenge in part by
                        complying with the America Competes Act, which requires NSF to ensure that
                        each institution that applies for financial assistance describes its plan to provide
                        appropriate training and oversight in the responsible and ethical conduct of
                        research to undergraduate students, graduate students, and postdoctoral
                        researchers participating in the proposed research project.

                        Like other science funding agencies, NSF is also grappling with the question
                        of deciding how to implement a single framework for the investigation and
                        resolution of research misconduct allegations made against a participant in a
                        multinational collaboration. In April 2009, the Global Science Forum issued a
                        report, Research Integrity: Preventing Misconduct and Dealing with Allegations,
                        that provides a basis for research integrity frameworks in projects involving
                        international partners. NSF must determine how to support this effort and to
                        implement its recommendations.

                        OIG’s Assessment of Agency’s Progress: During the past year, NSF
                        expanded its Proposal & Award Policies and Procedures Guide to provide
                        guidance addressing research integrity in international collaborations. It also
                        included a link to the April 2009 GSF report. NSF also helped to support an
                        International Responsible Conduct of Research Education Workshop held in
                        conjunction with the 2nd World Conference on Research Integrity in July 2010.
                        Finally, it made several awards focused on improving ethics education. As next
                        steps, NSF has made broad promises to continue to develop material and best
                        practices, and enhance training and outreach activities related to accountability
                        in the international context.


                        CHALLENGE: Effectively Managing Large Facilities and
                        Instruments
                        Overview: NSF’s Major Research Equipment and Facilities Construction
                        received $400 million in Recovery Act funds to upgrade enhance research
                        capabilities. Within this program, NSF funded the construction of three major
                        facilities: the Alaska Region Research Vessel, Ocean Observatories Initiative,
                        and the Advanced Technology Solar Telescope.

                 50
                                                                 OIG Semiannual Report     September 2010


Challenge for the Agency: Management of its large facilities presents several
challenges for NSF. One challenge for the agency is project oversight and
management to ensure that projects are on time, on budget, and meeting
performance expectations. We have previously noted NSF’s challenge in
assessing the performance of awardees. The influx of Recovery Act funds
and the accompanying additional transparency and reporting requirements
compound this challenge.

OIG’s Assessment of the Agency’s Progress: NSF reported that it is
continuing efforts to provide effective oversight of large facilities and that it has
taken several actions, including providing monthly facilities status reports to the
Budget, Finance, and Award Management Office and providing feedback to
directorates on annual facility performance goals and metrics. NSF also stated
that that it plans additional actions including reporting on visits to facility sites to
provide feedback on project management/oversight issues.

An audit completed in the past six months identified a significant concern with
NSF’s funding of contingencies in a cooperative agreement for one of its large
facilities. Specifically, the audit questioned $88 million, including more than
$34 million in Recovery Act funding allocated for contingency costs in NSF’s
cooperative agreement with the Consortium for Ocean Leadership (COL). COL
will manage the construction of the Ocean Observatories Initiative. Further, the
audit disclosed that during the construction of the observatories, COL can draw
down contingency funds as advances without NSF approval.

We also identified two emerging challenges that warrant NSF’s close atten-
tion—implementation of the Open Government Directive and planning for
NSF’s next headquarters.


Implementing the Open Government Directive
The Open Government Directive was issued in December 2009 in response to
the President’s call to establish a system of transparency, public participation,
and collaboration with the federal government. The directive requires agencies
to: publish government information online; improve the quality of information;
create and institutionalize a culture of open government; and create an enabling
policy framework for open government. NSF has pledged in its Open Govern-
ment Directive Plan that its key principle will be that “unless shown otherwise,
the default position shall be to make NSF data and information available in an
open machine-readable format”.

Since much of NSF’s research is not easily comprehensible to those outside
the science community, it has been an ongoing challenge for the agency to
describe its activities and their value to the public. The Directive presents NSF
with an opportunity to reflect on how it communicates the work it funds and how
it can improve the quality of the wide range of information that it disseminates.
In particular, to foster greater transparency and accountability, NSF should
review its financial and performance reports from the perspective of the public
and ensure that they answer the basic questions that an interested stakeholder
might ask.


                                                                                           51
Management Challenges


                        In the case of publishing research results, the agency has had to carefully
                        navigate sensitive issues related to confidentiality and privacy. The primary
                        challenge for NSF will be to reconcile the interests and prerogatives of the
                        researchers and research publications with the right of the public to have
                        access to taxpayer funded information. NSF is attempting to balance those
                        two priorities through two new services available at Research.gov, which will
                        provide long sought after details about research grants, including abstracts
                        and publication citations. As agencies are expected to perform a number of
                        recurring actions aimed at informing and engaging the public, NSF will also be
                        challenged to ensure that it has adequate staffing to maintain its commitment to
                        the Open Government Directive.

                        NSF’s Open Government Directive Plan has a number of initiatives aimed at
                        increasing the quantity of information available to the public, but little is written
                        about improving the quality of information. We hope that as the plan evolves,
                        NSF will give more attention to this issue. NSF has also enlisted a number of
                        social media and other channels to increase public participation in and knowl-
                        edge about its activities, which may help the agency to become more attuned
                        to the needs of its users and the public.


                        Planning for the Next NSF Headquarters
                        NSF’s leases for headquarter facilities in Arlington, Virginia expire in December
                        2013. In preparation for a new long-term lease, NSF developed criteria and
                        goals through surveys and focus groups with NSF leadership and staff. In April
                        2010, NSF submitted a lease prospectus to the Office of Management and
                        Budget (OMB) identifying future size and space requirements, expected number
                        of staff, location, and rental rate information. After approval by OMB, GSA will
                        send the prospectus to Congress. The competitive procurement for a new NSF
                        lease could begin as early as the first quarter of FY 2011.

                        NSF has been in its current location since 1993 and planning for headquarters
                        facilities that meet NSF’s future needs presents a major challenge for the
                        agency. Within the tight budget environment in which we are operating, NSF
                        is seeking to design a space that incorporates technological advances, reflects
                        sustainable and energy efficient design, and meets the need for flexible and
                        collaborative meeting workspace since many panels and conference meet
                        at NSF headquarters. The OIG plans to pay close attention to the lease
                        procurement project because of the complexity and cost involved, as well as its
                        implications for the next-generation NSF.




                 52
About The National Science Foundation...                                                           About the Cover...

                                                                                                   Original photo by OIG auditor, Laura Koren, taken at Spruce Knob, the summit of Spruce
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   Mountain, the highest point in West Virginia (Elevation 4,863).
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
                                      National      Office of
                                      Science      Inspector
                                      Foundation     General




National Science Foundation
 Office of Inspector General
4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230
         703.292.7100




      http://www.nsf.gov/oig
	
To report fraud, waste, or abuse,
	
 call our hotline 1.800.428.2189
	




                                                     Semiannual
                                                       Report to
                                                       Congress
                                                         September 2010
